TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Internal Revenue Service Adequately
                   Protected Sensitive Data and Restored
                  Computer Operations After the Flooding of
                          Its Headquarters Building



                                        January 26, 2007

                              Reference Number: 2007-20-023




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 26, 2007


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Adequately
                             Protected Sensitive Data and Restored Computer Operations After the
                             Flooding of Its Headquarters Building (Audit # 200620041)

 This report presents the results of our review to evaluate the actions taken by the Internal
 Revenue Service (IRS) in response to the flooding of its Headquarters building. Specifically, we
 determined whether the IRS adequately protected data and computer operations and sufficiently
 recovered its computer systems and data damaged or disrupted by the flooding. The Senate
 Finance Committee requested that the Treasury Inspector General for Tax Administration
 determine the extent and nature of disruption to IRS operations and identify the functions and
 locations that have been most affected as a result of the flooding. This audit is one of three
 reviews that the Treasury Inspector General for Tax Administration initiated to answer the
 Senate Finance Committee’s request.

 Impact on the Taxpayer
 The flooding disaster at the IRS Headquarters building in Washington, D.C., could have resulted
 in the loss of taxpayer data and disruption in computer operations. However, due to preparatory
 and responsive actions, the IRS adequately protected sensitive data in the aftermath of the
 flooding and restored computer operations for its Headquarters employees.

 Synopsis
 A rare tropical deluge over the Washington, D.C., metropolitan area on June 24 and 25, 2006,
 unleashed floods of water that swamped the Federal Triangle area of the nation’s capital and
 forced an estimated 3 million gallons of water into the basement and subbasement of the IRS
 Headquarters building at 1111 Constitution Avenue, NW. Due to cleanup activities, health
                       The Internal Revenue Service Adequately Protected Sensitive
                       Data and Restored Computer Operations After the Flooding of
                                        Its Headquarters Building


concerns, and the lack of electricity and ventilation, the building was closed and could not be
immediately reoccupied. The building reopened in December 2006. The Headquarters building
houses more than 2,200 employees from various IRS business units, including many top-level
management officials.
Perimeter security was always maintained at the Headquarters building, and entry was tightly
controlled after the flooding occurred. As a result,
taxpayer data stored in the entire building were
adequately protected against the risk of unauthorized      Taxpayer data stored in the entire
access. In addition, damaged equipment and destroyed           building were adequately
taxpayer data stored in the basement were properly            protected against the risk of
protected and disposed of.                                 unauthorized access. In addition,
                                                                           destroyed taxpayer data stored in
A little more than 1 month after the flooding, the             the basement were properly
Agency-Wide Shared Services Division had completed              protected and disposed of.
workstation space arrangements for displaced employees
in 15 different locations in the District of Columbia,
Maryland, and Virginia. Within the same time period, the Modernization and Information
Technology Services (MITS) organization had located unassigned computers for those
employees without computers, configured the computers to fit each employee’s needs, and
provided technical support to allow employees to reconnect to the IRS network.
The MITS organization restored computer infrastructure operations that existed in the
Headquarters building prior to the flooding. A Wage and Investment Division computer
application system, the only mainframe application operating out of the Headquarters building,
was reestablished at a mainframe computer in another site within 2 calendar days after the
flooding. Other critical servers1 were moved from the Headquarters building to another IRS
facility and restored for availability to employees within 8 calendar days after the flooding.
Many other vital servers were moved and restored within 2 weeks after the flooding.
We commend the efforts of the IRS and believe the actions taken by the IRS protected taxpayer
data and minimized the disruption of computer operations caused by the flooding. However, we
found the tracking of computer assets removed from the building was not initiated timely. For
example, several Wage and Investment Division servers were removed from the Headquarters
building without the knowledge or approval of the MITS organization. These servers were
temporarily stored overnight in non-IRS space. Also, the Criminal Investigation Division
removed many servers from the building before the asset tracking system was implemented.
MITS organization employees were unable to perform a physical inventory validation of
computers remaining in the building because the building was closed. However, now that the
building has reopened, the annual physical inventory validation is scheduled to begin in

1
    A server is a computer that delivers information and software to other computers linked by a network.
                                                                                                               2
                The Internal Revenue Service Adequately Protected Sensitive
                Data and Restored Computer Operations After the Flooding of
                                 Its Headquarters Building


January 2007. We encourage the completion of this inventory validation because it will provide
documented evidence that all computers are properly accounted for.

Recommendation
The Chief, Agency-Wide Shared Services, should ensure the Incident Management Plans for all
IRS locations include the implementation of an asset tracking system and related processes
immediately after a disaster.

Response
The Chief, Agency-Wide Shared Services, agreed with our findings and recommendation. The
Director, Agency-Wide Shared Services Employee Support Services, developed and
implemented an Emergency Incident Asset Retrieval form, which has been incorporated into the
Incident Management Plan Addendum. In addition, incident management planning was updated
to include the asset tracking process, and training was provided to appropriate personnel.
Management’s complete response to the draft report is included as Appendix IV.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Information Systems Programs), at (202) 622-8510.




                                                                                                 3
                       The Internal Revenue Service Adequately Protected Sensitive
                       Data and Restored Computer Operations After the Flooding of
                                        Its Headquarters Building




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Adequately Protected Sensitive
          Data in the Aftermath of the Flooding Disaster............................................Page 3
                    Recommendation 1:..........................................................Page 8

          The Internal Revenue Service Adequately Restored Computer
          Operations for Its Employees After the Flooding Disaster...........................Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
        The Internal Revenue Service Adequately Protected Sensitive
        Data and Restored Computer Operations After the Flooding of
                         Its Headquarters Building




                       Abbreviations

AWSS             Agency-Wide Shared Services
CI               Criminal Investigation
IRS              Internal Revenue Service
MITS             Modernization and Information Technology Services
TIGTA            Treasury Inspector General for Tax Administration
W&I              Wage and Investment
                     The Internal Revenue Service Adequately Protected Sensitive
                     Data and Restored Computer Operations After the Flooding of
                                      Its Headquarters Building




                                              Background

A rare tropical deluge over the Washington, D.C., metropolitan area on June 24 and 25, 2006,
unleashed floods of water that swamped the Federal Triangle area of the nation’s capital and
forced the closure of many Federal Government offices, including the Internal Revenue Service
(IRS) Headquarters building at 1111 Constitution Avenue, NW. Electrical and maintenance
equipment in the subbasement of the building was submerged in more than 20 feet of water.
Also, the basement of the building, which contained additional electrical equipment, a health
fitness facility, stored records, computer equipment, and vehicles garaged in the building, was
partially submerged.




On early Monday morning, floodwaters submerge        The floodwaters surrounding the IRS building broke
Constitution Avenue and engulf the IRS building.     through windows in several rooms in the basement of
(Photo provided by the IRS)                          the IRS building. (Photo provided by the IRS)


The IRS Headquarters building houses more than 2,200 employees from various IRS business
units. Among these employees are the top-level management officials, such as the
Commissioner and Deputy Commissioners.
On July 6, 2006, the Assistant Secretary for Management, Department of the Treasury, met with
the Treasury Inspector General for Tax Administration (TIGTA) and expressed concern about
how the IRS was responding to the disaster. On July 12, 2006, the ranking member of the Senate
Finance Committee sent a letter to the Inspector General requesting that the TIGTA determine
the extent and nature of disruption to IRS operations and identify the functions and locations that
have been most affected by the flooding. As a result, the TIGTA Office of Audit initiated three
audits to answer concerns about the flooding disaster at the IRS Headquarters building. This
review focused on data security and computer operations, while the objectives of the other

                                                                                                   Page 1
                   The Internal Revenue Service Adequately Protected Sensitive
                   Data and Restored Computer Operations After the Flooding of
                                    Its Headquarters Building


reviews1 relate to general business resumption efforts and determining the costs related to the
flooding disaster.
This review was performed at the IRS National Headquarters in Washington, D.C.; the IRS
Office of Chief Counsel at 950 L’Enfant Place, Washington, D.C.; the New Carrollton Federal
Building at 5000 Ellin Road, Lanham, Maryland; and the IRS Real Estate and Facilities
Management office at 2221 South Clark Street, Crystal City, Virginia, during the period July
through October 2006. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




1
  The Internal Revenue Service Building Flood Caused No Measurable Impact on Tax Administration (draft report
issued November 28, 2006) and Replacement Costs for Flood Damage to the Internal Revenue Service National
Headquarters (Audit Number 200710031, Engagement letter issued November 30, 2006).
                                                                                                       Page 2
                   The Internal Revenue Service Adequately Protected Sensitive
                   Data and Restored Computer Operations After the Flooding of
                                    Its Headquarters Building




                                     Results of Review

The Internal Revenue Service Adequately Protected Sensitive Data in
the Aftermath of the Flooding Disaster
The flooding into the IRS’ Headquarters building occurred on Sunday evening,
June 25, 2006. The building was unoccupied at the time except for the usual security guards
posted at the perimeter. A short-circuit in the electrical system caused by the flooding set off the
fire alarm at 10:45 p.m., and a security guard contacted the IRS building manager. The building
manager promptly went to the building to assess the situation. At that point, Constitution
Avenue was under 3 feet of water. Within 2 hours of arriving, the building manager had
arranged for water pumps to begin pumping water out of the basement. On Monday, June 26,
2 other firms, 1 under contract by the General Services Administration and another under
contract by the IRS, joined the first group in the removal of an estimated 3 million gallons of
water.
The IRS building manager notified the Incident Commander2 of the flooding at 12:45 a.m. on
Monday, June 26, 2006, and the Incident Commander contacted key management officials to
advise them of the flooding and that the building would be closed for the day. At 3:01 a.m., the
Incident Commander authorized a message to be sent to all IRS executives advising them of the
flooding of the building. The Incident Commander enlisted the support of the IRS
Communications Officer to contact the local media. By 3:37 a.m., all local television channels
and a radio station had been contacted for public notification of the building closure. The
announcement on the radio also included a contact telephone number for employees to call for
additional information. In addition, a voice mail message was issued to all IRS District of
Columbia employees advising them of the closure of the building for the day, and the IRS’
official web site provided current information on the building closure. Also, on June 26, 2006,
senior IRS leadership established operations in another local IRS building in accordance with the
IRS Business Resumption Plan.3
As the water receded, it became apparent that all contents located in the basement had been
damaged or destroyed. Doors had been forced from their hinges, some of the windows were
broken, and furniture was piled into doorways. Many records were soaked and all computers
were damaged. The highest water level in the basement reached approximately 5 feet. The


2
  An Incident Commander is directly responsible for frontline management of an incident. The Incident
Commander, in conjunction with other onsite business team managers, will develop and implement response
strategies and will use existing disaster preparedness documents for the recovery of business operations.
3
  The IRS Business Resumption Plan provides guidelines for reestablishing operations after a disaster.
                                                                                                            Page 3
                    The Internal Revenue Service Adequately Protected Sensitive
                    Data and Restored Computer Operations After the Flooding of
                                     Its Headquarters Building


water depth in the small subbasement, containing electrical and maintenance equipment, was
estimated at 20 feet.

Perimeter security was maintained at the building, and entry was tightly
controlled after the flooding occurred
In the days following the flooding, the IRS placed additional security guards to prevent any
unauthorized entry into the building. Physical access into the building was controlled through a
single entry point. All employees entering the building were required to sign in and out. By
Wednesday, June 28, 2006, it was determined by the Incident Commander and senior IRS
executives that the building would be closed for an extended period of time. Because the
building was secure at all times, taxpayer data maintained throughout the building were not at
risk of unauthorized access.

Damaged equipment and destroyed taxpayer data stored in the basement were
properly protected and disposed of
Unsalvageable records stored in the basement included over 100 boxes containing taxpayer and
other personally identifiable information belonging to the Office of Chief Counsel and the Office
of the Tax Exempt and Government Entities Division, personnel records of the Criminal
Investigation (CI) Division,4 employee medical records maintained by the Health Unit, and
Freedom of Information Act5 litigation documents. Based on potential health and contamination
issues caused by the floodwaters and the fact that many of the documents with long-term
retention periods were replicated in the records of United States District Attorneys and United
States District Courts, the National Archives Records Administration approved the destruction of
these records. On July 12, 2006, these records were destroyed by the document destruction
company currently under contract with the IRS.
Employees of the primary cleaning contractor normally used by the IRS from an existing
contract had been screened for suitability of employment; however, the additional
100 employees used for the emergency cleanup after the flood worked for a subcontractor and
did not have security clearances. Cleaning of the flooded building was conducted around the
clock, with the subcontractor employees working 12-hour shifts. These employees were required
to sign in and out of the building and were restricted to the basement area. In addition, the
primary contractor employees and the security guards on duty at the building monitored the
cleaning activities. Given these circumstances and mitigating controls in place, we believe the
use of unscreened contractors was appropriate to expedite cleanup efforts.



4
  The CI Division is responsible for detecting and investigating criminal violations of the Internal Revenue Code and
financially related crimes.
5
  5 U.S.C.A. § 552 (West Supp. 2003).
                                                                                                             Page 4
                    The Internal Revenue Service Adequately Protected Sensitive
                    Data and Restored Computer Operations After the Flooding of
                                     Its Headquarters Building


In addition to hardcopy files, Building Management function employees and contractors with
offices in the basement had computers that were destroyed. These computers did not contain
taxpayer information. The CI Division had three computers in the basement, one of which was
used to issue credentials. The three damaged CI Division computers were taken to the
CI Division laboratory for security purposes. The CI Division also had 12 new, unused notebook
computers damaged by the flood. In addition, the Office of Chief Counsel had $1.3 million of
new, unused computer equipment stored in the basement. None of the new equipment contained
taxpayer data. The new computers were disposed of by the contractor responsible for cleaning
the basement area.

Tracking of computer assets removed from the building was not initiated timely,
and computers were allowed to be taken out of the building without proper
oversight and accountability
While the flooding disaster mainly affected the basement and subbasement floors, it indirectly
affected the rest of the building because all electrical and ventilation equipment was damaged
and would take months to repair or replace. In addition, summer weather temperatures and high
humidity levels created concern about contamination and mold growth in the building. As a
result, the entire building was closed and deemed unsuitable for employee occupancy.
To expedite the resumption of normal operations, the IRS allowed limited and escorted traffic
into the building after the flooding. To account for and control building traffic, all persons
entering and leaving the building were required to sign in and out. Employees were permitted to
enter the building and remove personal items, files, and computers. For example, many
employees who were assigned laptop computers entered the building to retrieve their computers.
In some cases, IRS computer desktop support employees helped the employees pack their
computers for shipment to the employees’ new work locations. Some of the larger desktop
computers were removed, but most of these computers remained in the building. The IRS
provided replacement computers for these users at their new locations. Procedures for tracking
computer assets in the event of a disaster had not been included in the IRS’ Incident
Management Plan.6
By Friday, June 30, 2006, the IRS had developed and implemented an asset tracking process to
track the removal of assets, including equipment and records from the IRS Headquarters
building. Modernization and Information Technology Services (MITS) organization7 managers
requested that no computer equipment be moved except under controlled and secure conditions.
In addition, employees who had already removed items were asked to retroactively complete the

6
  An Incident Management Plan describes the overall coordinated actions to be taken by the Incident Management
team to ensure recovery and restoration of a facility when an incident occurs.
7
  The MITS organization is responsible for providing information technology support and services for the IRS by
building and maintaining information systems that will help the IRS achieve its mission, objectives, and business
vision.
                                                                                                           Page 5
                    The Internal Revenue Service Adquatdy Protected SensIthre
                    Data and Restored Compufer Opemtironr After M e Flooding of
             p                       /is Headquarters BuMng


asset tracking forms so inventory records would show the correct location for eachitem. To
their credit, 148 employees completed the tracking forms, listing the equipment and items they
had taken from the building between June 26 and June 29,2006..According to these forms,
104 computers were removed, including 81 laptop computers. In total, employees removed
627 computers, includng 464 laptop computers, from the Headquarters building.'
         On Wednesday, June 28,2006, seven servers9from the Wage and investment (W&I)
         Division" were removed from the Headquarters building by contractors and placed in a




         following day, the MITS organization directed the W&I Division to immediately move
         these servers to a designated R S building and the move was completed that same'day.
         Before these computers were reconnected to the IRS network, the IRS tested the
         computers to ensure compliance with-IRSsecurity standards. The servers have been
         tracked to their current location.
         On Wednesday, June 28,2006, and Thursday, June 29, 2006, employees from the
         CI Division removed 41 computer servers from the Headquarters building using a rented
         truck. The CI Division was able to move the computers before the asset tracking system
         was in place because the Division has its own computer staff and did not need assistance
         from the MITS organization. Prior to the removal of the equipment, the Chief, CI,
         obtained verbal authorization from the Chief, Agency-Wide Shared Services (AWSS)."
         The CI Division contends that the computer assets were always under its controI and
         secure at all.tirnes,and it maintained documentation to verify that its computer assets
         were being tracked within the Division to their current locations.
         Many critical servers were moved to two different locations on Friday, June 30,2006.
         Fifteen serversused by the W&I Division's Computer Assisted Publishing SystemI2
         were moved by a contractor to the IRS Enterprise Computing Center in
         Martinsburg, West Virginiq where this equipment will remain permanently. The

   The TIGTA obtained current inventory data on.servers removed fiom the building through contacts with the
affected IRS business units. We considered this information to be sufftcient for achieving our audit objective.
9
   A server is a computer that delivers information and softwae to other computers linked by a network.
10
    The W&I Division services individual taxpayers and provides the information, support, and assistance these
taxpayers need to fulfilltheir tax obligations.
I ' The AWSS Division provides administrative services to support IRS employees. These se,wicesinclude real
estate and facilities management, procurements, cqual employment opportunity, trayel, and payroll and personnel.
''  The Computer Assisted Publishing System provides computer resources to maintain a central printing and
publication management organization for the development and distribution of published materials for 13 divisions af
the lRS.
                                                                                                           Page 6
                   The Internal Revenue Service Adequately Protected Sensitive
                   Data and Restored Computer Operations After the Flooding of
                                    Its Headquarters Building


         mainframe computer for this System, the only mainframe application operating out of the
         Headquarters building, was not moved and still resides in the Headquarters building.
         However, the application was reestablished on another mainframe computer at the
         Martinsburg location within 2 calendar days after the flooding. Thirty pieces of
         equipment, including 20 servers deemed critical to IRS operations, were moved the same
         day by a contractor to the computer room located in the IRS facility in Lanham,
         Maryland. Some servers provided shared storage space for several IRS business units,
         and others contained information vital to the Office of the Chief Financial Officer and to
         the Commissioner’s staff. These two moves were performed securely, with inventory
         records prepared and verified throughout the moving process. The trucks were
         accompanied by CI Division special agents to ensure safe arrival at their destinations.
     •   One week later, on Friday, July 7, 2006, with 1 freight elevator in the building
         operational, IRS contract movers were able to more easily transfer 82 pieces of
         equipment, including 24 additional vital servers, from the Headquarters building to the
         computer room in the IRS facility in Lanham, Maryland, using required security and
         inventory controls.
     •   A review of IRS inventory records for the Headquarters building, as of August 15, 2006,
         showed that almost one-half of the servers assigned to the Headquarters building had not
         been scanned or modified after the date of the flooding event. While it is likely that
         many of these servers remain inside the building, we cannot be sure because the asset
         tracking system was not in place until 5 calendar days after the flooding.
Because the building was closed, MITS organization employees were unable to perform a
physical inventory validation of the workstations and servers remaining in the building. The
building reopened for occupancy December 8, 2006, and the IRS plans to begin its annual
physical inventory in January 2007. We encourage the completion of this inventory validation
because it will provide documented evidence that the computers are still located in the
Headquarters building. We had made a similar recommendation during an audit on the IRS’
efforts for Hurricanes Katrina and Rita.13 Specifically, we recommended the Chief Information
Officer establish procedures to conduct a physical inventory validation of all computers at IRS
facilities that suffer extensive damage after any major disaster, to identify possible loss or theft
of computers. In addition, the report stated this validation should be performed within
30 calendar days after the disaster. Due to the closure of the Headquarters building, we were
likewise unable to conduct a physical validation of computer assets located in the building.




13
 The Internal Revenue Service Successfully Accounted for Employees and Restored Computer Operations After
Hurricanes Katrina and Rita (Reference Number 2006-20-068, dated March 2006).
                                                                                                     Page 7
                 The Internal Revenue Service Adequately Protected Sensitive
                 Data and Restored Computer Operations After the Flooding of
                                  Its Headquarters Building


Recommendation
Recommendation 1: The Chief, AWSS, should ensure the Incident Management Plans for all
IRS locations include the implementation of an asset tracking system and related processes
immediately after a disaster.
       Management’s Response: The Chief, AWSS, concurred with the finding and
       recommendation. The IRS developed and implemented an Emergency Incident Asset
       Retrieval Tracking form, which has been incorporated into the Incident Management Plan
       Addendum. In addition, all written material concerning incident management planning
       has been updated to include asset tracking processes, and training was provided to
       appropriate personnel.

The Internal Revenue Service Adequately Restored Computer
Operations for Its Employees After the Flooding Disaster
Because the flooding disaster damaged the electrical and ventilation functions of the building,
employees were not allowed to work in the building, which required the IRS to locate temporary
workspace for all displaced employees. This responsibility was assigned to the AWSS Division.
Business Resumption Coordinators for each of the business units provided the Incident
Commander with a prioritized list of employees who required space. The AWSS Division
secured workstation space arrangements for the displaced employees in 15 different locations in
the District of Columbia, Maryland, and Virginia.
In addition to finding workspace for displaced employees, the IRS needed to provide them with
computer resources to resume tax administration activities and to move all computer
infrastructure operations that existed in the building prior to the flooding. These responsibilities
were assigned to the MITS organization. To this end, MITS organization employees worked
many hours of overtime that resulted in overtime costs of about $50,000.
Some employees who regained possession of their computers reported to work at other IRS
offices and connected directly to the IRS network. For those employees who requested to
temporarily work at home, IRS technicians installed secure connectivity software in their
computers so these employees could connect to the IRS network.
For displaced employees who reported back to work but did not have computers with which to
resume their duties, MITS organization personnel were tasked with locating unassigned
computers, visiting the various worksites of displaced employees, and configuring computers to
fit each employee’s needs. With more than 2,200 displaced employees, this endeavor was
daunting, yet the MITS organization provided all employees with assigned computers by
July 28, 2006, a little over 1 month after the flooding occurred.



                                                                                              Page 8
                 The Internal Revenue Service Adequately Protected Sensitive
                 Data and Restored Computer Operations After the Flooding of
                                  Its Headquarters Building


Additionally, the IRS provided network data and telephone lines in two new locations that were
rented for the CI Division and Office of Chief Counsel staffs. Adaptive computer equipment
required by some employees with special needs was moved to their temporary work locations.
As previously mentioned, the IRS moved many servers out of the Headquarters building to new
locations. The MITS organization timely restored connectivity of these servers to the IRS
network. For example, MITS organization personnel worked over the weekend to restore the
critical servers removed from the building on June 30, 2006; the servers were restored by the
following Monday, July 3, 2006 (8 calendar days after the flooding). Most of the vital servers
moved on Friday, July 7, 2006, were placed into operation that weekend (2 weeks after the
flooding). In addition, the connectivity of the W&I Division’s Computer Assisted Publishing
System was restored on another mainframe computer at the Enterprise Computing Center in
Martinsburg, West Virginia, within 2 calendar days. Electronic mail servers and BlackBerry™
servers supporting Headquarters building employees were not located in the Headquarters
building and were not affected by the flooding disaster.
Although the demands created by this disaster required additional equipment and services, the
IRS did not request additional funding. We commend the efforts of the IRS and believe the
actions taken by the IRS minimized the disruption caused by the flooding disaster.




                                                                                         Page 9
                 The Internal Revenue Service Adequately Protected Sensitive
                 Data and Restored Computer Operations After the Flooding of
                                  Its Headquarters Building


                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the actions taken by the IRS in response to
the flooding of its Headquarters building. Specifically, we determined whether the IRS
adequately protected data and computer operations and sufficiently recovered its computer
systems and data damaged or disrupted by the flooding. To accomplish our objective, we:
I.     Determined whether the IRS protected taxpayer data during and after the flood.
       A. Assessed the security of the IRS Headquarters building after the disaster.
       B. Assessed the security of taxpayer records and computer equipment during cleanup
          activities.
II.    Determined whether the IRS sufficiently recovered its computer systems and data
       damaged or disrupted by the flooding.
       A. Assessed whether the computer operations and related data were timely and
          adequately restored.
       B. Assessed whether taxpayer records were being adequately protected by employees
          who were working in facilities outside the control of the IRS.




                                                                                          Page 10
                The Internal Revenue Service Adequately Protected Sensitive
                Data and Restored Computer Operations After the Flooding of
                                 Its Headquarters Building


                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Stasha Smith, Lead Auditor
Charles Ekunwe, Senior Auditor
Myron Gulley, Senior Auditor




                                                                                     Page 11
                The Internal Revenue Service Adequately Protected Sensitive
                Data and Restored Computer Operations After the Flooding of
                                 Its Headquarters Building


                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support
Chief Information Officer OS:CIO
Chief, Mission Assurance and Security Services OS:MA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief, Mission Assurance and Security Services OS:MA
       Director, Program Oversight OS:CIO:SM:PO




                                                                       Page 12
    The Internal Revenue Service Adequately Protected Sensitive
    Data and Restored Computer Operations After the Flooding of
                     Its Headquarters Building


                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 13
The Internal Revenue Service Adequately Protected Sensitive
Data and Restored Computer Operations After the Flooding of
                 Its Headquarters Building




                                                       Page 14
